APPENDIX
APPENDIX A:

Judgment of the United States District Court for the Northern
District of Iowa, 1:19-CR00108-001 May 15, 2020 ....................... 1

APPENDIX B:

Order of the United States District Court for the Northern
District of Iowa, 1:19-CR00108-001 May 19, 2020 ....................... 8

APPENDIX C:

Opinion of the Eighth Circuit Court of Appeals, 20-2072 July 7,
2021 .............................................................................................. 15

APPENDIX D:

Judgment of the Eighth Circuit Court of Appeals, 20-2072 July 7,
2021 .............................................................................................. 19

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))

UNITED STATES DISTRICT COURT
Northern District of Iowa
) JUDGMENT IN A CRIMINAL CASE
UNITED STATES OF AMERICA
)
) Case Number: 0862 1:19CR00108-001
)
) USM Number: 18175-029
)

v.
ANTONIO DONNEL JOHNSON




ORIGINAL JUDGMENT

Jill M. Johnston

AMENDED JUDGMENT
Date of Most Recent Judgment:
Reason for Amendment:

Defendant’s Attorney

THE DEFENDANT:

 pleaded guilty to count(s) 1 of the Indictment filed on September 23, 2019
 pleaded nolo contendere to count(s)
which was accepted by the court.

 was found guilty on count(s)
after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section
18 U.S.C. §§ 922(g)(1),
922(g)(9), and 924(a)(2)

Nature of Offense
Possession of a Firearm by a Prohibited Person

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

 The defendant has been found not guilty on count(s)
 Count(s)

7

Offense Ended
03/21/2019

Count
1

of this judgment. The sentence is imposed pursuant to

is/are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name, residence, or
mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States Attorney of material changes in economic circumstances.
C.J. Williams
United States District Court Judge
Name and Title of Judge

Signature of Judge

May 15, 2020

May 15, 2020
Date of Imposition of Judgment

Date

Case 1:19-cr-00108-CJW-MAR Document 46 Filed 05/15/20 Page 1 of 7 APPENDIX A

ADD. 001

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment — Page

DEFENDANT:
CASE NUMBER:

2

of

7

ANTONIO DONNEL JOHNSON
0862 1:19CR00108-001

PROBATION



The defendant is hereby sentenced to probation for a term of:

IMPRISONMENT



The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
60 months on Count 1 of the Indictment.



The court makes the following recommendations to the Federal Bureau of Prisons:
It is recommended that the defendant be designated to a Bureau of Prisons facility as close to the defendant's family as
possible, commensurate with the defendant's security and custody classification needs.
It is recommended that the defendant participate in the Bureau of Prisons' 500-Hour Comprehensive Residential Drug
Abuse Treatment Program or an alternate substance abuse treatment program.



The defendant is remanded to the custody of the United States Marshal.



The defendant must surrender to the United States Marshal for this district:





at





as notified by the United States Marshal.

a.m.



p.m.

on

.

The defendant must surrender for service of sentence at the institution designated by the Federal Bureau of Prisons:





before 2 p.m. on

.

as notified by the United States Marshal.
as notified by the United States Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 1:19-cr-00108-CJW-MAR Document 46 Filed 05/15/20 Page 2 of 7
ADD. 002

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment—Page

DEFENDANT:
CASE NUMBER:

3

of

7

ANTONIO DONNEL JOHNSON
0862 1:19CR00108-001

SUPERVISED RELEASE



Upon release from imprisonment, the defendant will be on supervised release for a term of:
3 years on Count 1 of the Indictment.

MANDATORY CONDITIONS OF SUPERVISION
1)

The defendant must not commit another federal, state, or local crime.

2)

The defendant must not unlawfully possess a controlled substance.

3)

The defendant must refrain from any unlawful use of a controlled substance.
The defendant must submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.



5)




6)



4)

The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future controlled substance abuse. (Check, if applicable.)

The defendant must cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
The defendant must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901,
et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location
where the defendant resides, works, and/or is a student, and/or was convicted of a qualifying offense. (Check, if applicable.)
The defendant must participate in an approved program for domestic violence. (Check, if applicable.)

The defendant must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Case 1:19-cr-00108-CJW-MAR Document 46 Filed 05/15/20 Page 3 of 7
ADD. 003

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment—Page

DEFENDANT:
CASE NUMBER:

4

of

7

ANTONIO DONNEL JOHNSON
0862 1:19CR00108-001

STANDARD CONDITIONS OF SUPERVISION
As part of the defendant’s supervision, the defendant must comply with the following standard conditions of supervision. These
conditions are imposed because they establish the basic expectations for the defendant’s behavior while on supervision and identify the
minimum tools needed by probation officers to keep informed, report to the court about, and bring about improvements in the defendant’s
conduct and condition.
1)

The defendant must report to the probation office in the federal judicial district where the defendant is authorized to reside within
72 hours of the time the defendant was sentenced and/or released from imprisonment, unless the probation officer instructs the
defendant to report to a different probation office or within a different time frame.

2)

After initially reporting to the probation office, the defendant will receive instructions from the court or the probation officer
about how and when the defendant must report to the probation officer, and the defendant must report to the probation officer as
instructed. The defendant must also appear in court as required.

3)

The defendant must not knowingly leave the federal judicial district where the defendant is authorized to reside without first
getting permission from the court or the probation officer.

4)

The defendant must answer truthfully the questions asked by the defendant’s probation officer.

5)

The defendant must live at a place approved by the probation officer. If the defendant plans to change where the defendant lives
or anything about the defendant’s living arrangements (such as the people the defendant lives with), the defendant must notify
the probation officer at least 10 days before the change. If notifying the probation officer in advance is not possible due to
unanticipated circumstances, the defendant must notify the probation officer within 72 hours of becoming aware of a change or
expected change.

6)

The defendant must allow the probation officer to visit the defendant at any time at the defendant’s home or elsewhere, and the
defendant must permit the probation officer to take any items prohibited by the conditions of the defendant’s supervision that he
or she observes in plain view.

7)

The defendant must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer
excuses the defendant from doing so. If the defendant does not have full-time employment, the defendant must try to find fulltime employment, unless the probation officer excuses the defendant from doing so. If the defendant plans to change where the
defendant works or anything about the defendant’s work (such as the defendant’s position or the defendant’s job responsibilities),
the defendant must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, the defendant must notify the probation officer within 72
hours of becoming aware of a change or expected change.

8)

The defendant must not communicate or interact with someone the defendant knows is engaged in criminal activity. If the
defendant knows someone has been convicted of a felony, the defendant must not knowingly communicate or interact with that
person without first getting the permission of the probation officer.

9)

If the defendant is arrested or questioned by a law enforcement officer, the defendant must notify the probation officer within 72
hours.

10)

The defendant must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e.,
anything that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).

11)

The defendant must not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.

12)

As directed by the probation officer, the defendant must notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and must permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

13)

The defendant must follow the instructions of the probation officer related to the conditions of supervision.

Case 1:19-cr-00108-CJW-MAR Document 46 Filed 05/15/20 Page 4 of 7

ADD. 004

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment—Page

DEFENDANT:
CASE NUMBER:

5

of

7

ANTONIO DONNEL JOHNSON
0862 1:19CR00108-001

SPECIAL CONDITIONS OF SUPERVISION
The defendant must comply with the following special conditions as ordered by the Court and implemented by the United States Probation
Office:

1.

The defendant must submit the defendant’s person, property, house, residence, vehicle, papers, computers [as
defined in 18 U.S.C. § 1030(e)(1)], other electronic communications or data storage devices or media, or office,
to a search conducted by a United States Probation Officer. Failure to submit to a search may be grounds for
revocation of release. The defendant must warn any other occupants that the premises may be subject to
searches pursuant to this condition. The United States Probation Office may conduct a search under this
condition only when reasonable suspicion exists that the defendant has violated a condition of supervision and
that the areas to be searched contain evidence of this violation. Any search must be conducted at a reasonable
time and in a reasonable manner.

2.

The defendant must participate in a mental health evaluation. The defendant must complete any
recommended treatment program, and follow the rules and regulations of the treatment program. The
defendant must take all medications prescribed to the defendant by a licensed medical provider.

3.

The defendant must participate in an evaluation for anger management and/or domestic violence. The
defendant must complete any recommended treatment program, and follow the rules and regulations of the
treatment program.

4.

The defendant must participate in a substance abuse evaluation. The defendant must complete any
recommended treatment program, which may include a cognitive behavioral group, and follow the rules and
regulations of the treatment program. The defendant must participate in a program of testing for substance
abuse. The defendant must not attempt to obstruct or tamper with the testing methods.

5.

The defendant must not use or possess alcohol. The defendant is prohibited from entering any establishment
that holds itself out to the public to be a bar or tavern without the prior permission of the United States
Probation Office.

These conditions have been read to me. I fully understand the conditions and have been provided a copy of them. Upon a finding of a
violation of supervision, I understand the Court may: (1) revoke supervision; (2) extend the term of supervision; and/or (3) modify the
condition of supervision.

Defendant

Date

United States Probation Officer/Designated Witness

Date

Case 1:19-cr-00108-CJW-MAR Document 46 Filed 05/15/20 Page 5 of 7

ADD. 005

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment

DEFENDANT:
CASE NUMBER:

6

of

7

ANTONIO DONNEL JOHNSON
0862 1:19CR00108-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

AVAA Assessment1
$0

Assessment
$ 100

JVTA Assessment2
$0

Fine
$0

Restitution
$0



The determination of restitution is deferred until
after such determination.



The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.
Total Loss3

Name of Payee

TOTALS

$

Restitution Ordered

Priority or Percentage

$



Restitution amount ordered pursuant to plea agreement $



The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).



The court determined that the defendant does not have the ability to pay interest and it is ordered that:




the interest requirement is waived for the
the interest requirement for the



fine

 fine  restitution.
 restitution is modified as follows:

1

Amy, Vicky, and Any Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.
Justice for Victims of Trafficking Act of 2015, 18 U.S.C. § 3014.
3
Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.
2

Case 1:19-cr-00108-CJW-MAR Document 46 Filed 05/15/20 Page 6 of 7

ADD. 006

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment—Page

DEFENDANT:
CASE NUMBER:

7

of

7

ANTONIO DONNEL JOHNSON
0862 1:19CR00108-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A



Lump sum payment of $



B
C




100

due immediately, balance due

not later than
in accordance with

, or



C,



Payment to begin immediately (may be combined with
Payment in equal





E, or



C,




F below; or
D, or



F below); or

(e.g., weekly, monthly, quarterly) installments of $

(e.g., months or years), to commence

D

D,

over a period of

(e.g., 30 or 60 days) after the date of this judgment; or

Payment in equal

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E



Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F



Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant will receive credit for all payments previously made toward any criminal monetary penalties imposed.



Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.





The defendant must pay the cost of prosecution.
The defendant must pay the following court cost(s):
The defendant must forfeit the defendant’s interest in the following property to the United States:
As set forth in the Preliminary Order of Forfeiture filed on January 17, 2020, Document No. 30.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court
costs.

Case 1:19-cr-00108-CJW-MAR Document 46 Filed 05/15/20 Page 7 of 7

ADD. 007

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
CEDAR RAPIDS DIVISION

UNITED STATES OF AMERICA,
Plaintiff,

No. 19-CR-108-CJW-MAR

vs.

ORDER

ANTONIO DONNEL JOHNSON,
Defendant.
____________________
I.

INTRODUCTION

On May 15, 2020, this matter came on for sentencing.

(Doc. 45).

At

sentencing, defendant argued his prior conviction for possession with intent to deliver
marijuana did not qualify as a controlled substance offense as defined in United States
Sentencing Guidelines (“USSG”) Section 4B1.2(b). (Doc. 42, at 1). Defendant also
moved for a downward variance from his advisory guideline range of 70 to 87 months
imprisonment. (Id.). For the reasons articulated on the record during the sentencing
hearing and more fully set forth here, the Court found defendant’s prior conviction
qualified as a controlled substance offense under Section 4B1.2(b) and a downward
variance was appropriate.
II.

RELEVANT BACKGROUND

In defendant’s presentence investigation report (“PSR”), the United States
Probation Office (“USPO”) assessed defendant with a base offense level of 20 because,
under USSG Section 2K2.1(a)(4)(A), defendant was previously convicted of a “controlled
substance offense.” (Doc. 34, at 6). Specifically, defendant was previously convicted
of possession with intent to deliver marijuana in violation of Iowa Code 124.401. (Id.,
1

Case 1:19-cr-00108-CJW-MAR Document 48 Filed 05/19/20 Page 1 of 7
APPENDIX B
ADD. 008

at 10). Application Note 1 to Section 2K2.1 defines “controlled substance offense” as
having “the meaning given that term in §4B1.2(b) and Application Note 1 of the
Commentary.” Section 4B1.2(b) defines “controlled substance offense” but does not
itself explicitly include within its definition inchoate controlled substance offenses such
as aiding and abetting, attempt, and conspiracy. Application Note 1 to Section 4B1.2
specifies that the definition of “controlled substance offense” includes “the offenses of
aiding and abetting, conspiring, and attempting to commit such offenses.”
In his sentencing brief and at the hearing, defendant posited his prior conviction
could have been committed by attempt or by aiding and abetting because Iowa law does
not require such inchoate offenses to be charged separately and, instead, automatically
applies them. (Doc. 42, at 3); see also IOWA CODE § 703.1. Thus, defendant asserted
two related arguments. First, defendant argued Iowa law allows a conviction for aiding
and abetting based on knowledge alone without requiring intentional or purposeful aiding
and abetting. Because this definition is broader than the generic definition of aiding and
abetting, defendant argued it cannot serve as the basis for a conviction under Mathis v.
United States, 136 S. Ct. 2243 (2016). (Doc. 42, at 5-6). Second, defendant argued
his prior conviction does not fall within the definition of “controlled substance offense”
in Section 4B1.2(b) because defendant could have committed this offense through aiding
and abetting under Iowa law which is not explicitly included in Section 4B1.2(b)’s
definition.

(Id., at 2-5).

Defendant also argued that, to the extent the USSG

commentary incorporates inchoate offenses into that definition, such incorporation is an
improper “expansion” of the guideline outside of the authority of the United States
Sentencing Commission as opposed to a permissible “interpretation.” (Id., at 3-5). The
government filed a brief in response on these issues arguing defendant’s base offense
level was properly assessed. (Doc. 44).

2

Case 1:19-cr-00108-CJW-MAR Document 48 Filed 05/19/20 Page 2 of 7
ADD. 009

III.

ANALYSIS

At the sentencing hearing, the Court addressed the above arguments raised by
defendant. The Court sets out its reasoning more fully here.
As a preliminary matter, the Court agrees with defendant that Iowa Code Section
124.401 is indivisible and thus requires the Court to apply the categorical approach.
(Doc. 42, at 4-5); see also Mathias, 136 S. Ct. at 2248-49, 2256; United States v. Boleyn,
929 F.3d 932, 936, 938 (8th Cir. 2019). Thus, the Court must determine whether
defendant’s prior conviction qualifies as a controlled substance offense under USSG
Section 4B1.2(b) by only looking to the elements of the offense itself and not the facts
surrounding the offense.
A.

Broader Definition of Aiding and Abetting in Iowa

Defendant argued Iowa’s definition of aiding and abetting is broader than the
generic definition because it requires only knowledge, thus preventing it from serving as
the basis for a conviction under Mathis. (Doc. 42, at 5-6). Defendant asserted this
argument only to preserve it for a potential appeal and acknowledged the Eighth Circuit
Court of Appeals ruled against his position in United States v. Boleyn. (Id., at 5). In
Boleyn, the Eighth Circuit Court of Appeals held that Iowa law, as interpreted by the
Iowa Supreme Court, “requires more than mere ‘knowledge’ to convict a defendant of
aiding and abetting liability.” 929 F.3d at 940. Thus, “the Iowa law of aiding and
abetting liability is substantially equivalent to, not meaningfully broader than, the
standard adopted by federal courts[.]” Id.
The Court found it was bound by the decision in Boleyn and thus overruled
defendant’s argument on this issue.
B.

Section 4B1.2(b)’s Definition of Controlled Substance Offense

Defendant argued his prior conviction does not fall within the definition of
“controlled substance offense” in Section 4B1.2(b) because he could have committed this
3

Case 1:19-cr-00108-CJW-MAR Document 48 Filed 05/19/20 Page 3 of 7
ADD. 010

offense through aiding and abetting under Iowa law and that, to the extent the USSG
commentary incorporates inchoate offenses, such incorporation is an improper expansion
of the guideline. (Doc. 42, at 3-5). Defendant relies on United States v. Havis, wherein
the Sixth Circuit Court of Appeals held Section 4B1.2(b) makes no mention of inchoate
crimes and commentary to the section could not expand the definition of “controlled
substance offense” because such commentary was not subject to congressional review,
notice, or public comment. (Doc. 42, at 3-4) (citing United States v. Havis, 927 F.3d
382, 384-86 (6th Cir. 2019)). Thus, the Havis court concluded defendant’s conviction
for delivery of a controlled substance under a statute which included attempt could not
be used to increase his base offense level under Section 4B1.2(b). 927 F.3d at 387; see
also United States v. Winstead, 890 F.3d 1082, 1092 (D.C. Cir. 2018) (same).
The Court rejected defendant’s argument, finding the commentary to Section
4B1.2 to be a permissible interpretation of the guidelines, not an expansion. In United
States v. Mendoza-Figueroa, the Eighth Circuit Court of Appeals found the defendant’s
conviction for conspiracy to distribute marijuana was a controlled substance offense within
the meaning of Section 4B1.2. 65 F.3d 691, 692-94 (8th Cir. 1995). The Mendoza Court
found the commentary to be a reasonable interpretation of the term “controlled substance
offense” and not an expansion of it. Id., at 694. The Eighth Circuit Court of Appeals
reached the same finding again in United States v. Merritt, 934 F.3d 809, 811 (8th Cir.
2019). Although Mendoza and Merritt both involved conspiracy and not attempt or aiding
and abetting, the Eighth Circuit made no distinction between conspiracy and other inchoate
offenses. In United States v. Davis, the Eighth Circuit applied the holding in Mendoza to
an attempt offense, further suggesting Section 4B1.2 is reasonably interpreted by the
commentary to encompass all inchoate offenses. See No. 18-3485, 2020 WL 1898254, at
*1 (8th Cir. Apr. 17, 2020). Here, defendant did not identify any reason why conspiracy
and attempt are both reasonably interpreted as encompassed by Section 4B1.2 but aiding
and abetting is not. The Court found no basis to distinguish Mendoza’s reasoning as it
4

Case 1:19-cr-00108-CJW-MAR Document 48 Filed 05/19/20 Page 4 of 7
ADD. 011

applies to one type of inchoate crime versus another.
As for the contrary holdings in Havis in the Sixth Circuit and United States v.
Winstead in the D.C. Circuit, those decisions are in the minority. The First, Second, Third,
Seventh, Ninth and Eleventh Circuits have ruled consistent with the Eighth Circuit and
rejected the textual argument made here. See United States v. Richardson, No. 19-412-cr,
2020 WL 2123297, at *2 (2d Cir. May 5, 2020); United States v. Adams, 934 F.3d 720,
729 (7th Cir. 2019); United States v. Crum, 934 F.3d 963, 966-67 (9th Cir. 2019) (following
precedent in concluding that Application Note 1 to Section 4B1.2 “properly interprets the
definition of the term ‘controlled substance offense’ to encompass aiding and abetting,
conspiracy, attempt, and other forms of the underlying offense.”); United States v. Smith,
54 F.3d 690, 693 (11th Cir. 1995); United States v. Piper, 35 F.3d 611, 617-19 (1st Cir.
1994); United States v. Hightower, 25 F.3d 182, 187 (3rd Cir. 1994). The Fourth, Fifth,
and Tenth Circuits have not addressed this issue and the lower courts in those circuits have
reached inconsistent conclusions.
Thus, the Court concluded Application Note 1 to Section 4B1.2 was a reasonable
interpretation of the guideline and not an expansion, defendant’s offense was a controlled
substance offense as defined in Section 4B1.2, and overruled defendant’s objection to the
calculation of his base offense level in his PSR.
C.

Defendant’s Motion for Downward Variance

Defendant moved for a downward variance from his guideline range of 70 to 87
months. (Doc. 42, at 6-9); see also (Doc. 34, at 23) (noting defendant’s total offense
level of 21 and criminal history as category V). Defendant argued a variance was
appropriate because (1) he properly although unfairly received a four-level increase for
carrying weapons under Iowa law which had the effect of punishing him twice for the
same conduct, (2) the circumstances here were not aggravating, particularly because
defendant possessed the firearm for self-protection after being the victim of a robbery,
(3) he has been surrounded by gun violence throughout his life, having been shot multiple
5

Case 1:19-cr-00108-CJW-MAR Document 48 Filed 05/19/20 Page 5 of 7
ADD. 012

times on multiple occasions and witnessing the shooting death of a friend, (4) his
childhood was plagued with various forms of abuse and neglect, (5) he was exposed to
drugs and alcohol at an early age, (6) he is disabled and has both physical and mental
health concerns, and (7) he is particularly at risk of exposure to COVID-19 while in
prison. (Id.).
The Court rejected several of defendant’s bases for a variance. As to defendant’s
four-level increase for carrying weapons, the Court found it would have to improperly
disregard United States v. Walker, 771 F.3d 449 (8th Cir. 2014) to vary downward based
on this argument. The Court also found the absence of aggravating factors does not
itself constitute a mitigating factor. Although the Court was sympathetic to defendant’s
early exposure to drugs and alcohol, it concluded this fact was balanced out by
defendant’s continued use of drugs and alcohol as an adult which drives much of his
criminal history. The Court also found defendant’s various impairments did not warrant
a variance under the circumstances. As to the COVID-19 pandemic specifically, the
Court held that any variance other than a variance to probation would be ineffective in
addressing defendant’s concerns of exposure. Further, the Court found there was no
evidence defendant would be more at risk of exposure in prison than out in the public.
Thus, to the extent the Court could consider the pandemic in varying downward, it
declined to do so. The Court did, however, find other bases cited by defendant to be
persuasive, particularly defendant’s difficult childhood and mental health. The Court
noted defendant’s possession of the firearm for self-defense was also slightly mitigating.
Thus, after considering all the factors at Title 18, United States Code, Section
3553(a), the Court concluded that a small downward variance was appropriate. The
Court concluded that a sentence of 60 months imprisonment followed by three years on
supervised release was the sentence that is sufficient but not greater than necessary to
achieve the goals of sentencing.
6

Case 1:19-cr-00108-CJW-MAR Document 48 Filed 05/19/20 Page 6 of 7
ADD. 013

IV.

CONCLUSION

For these reasons, the Court found defendant’s prior conviction qualified as a
controlled substance offense under Section 4B1.2(b), that a downward variance was
appropriate, and that a sentence of 60 months imprisonment followed by three years on
supervised release was sufficient but not greater than necessary to achieve the goals of
sentencing.
IT IS SO ORDERED this 19th day of May, 2020.

__________________________
C.J. Williams
United States District Judge
Northern District of Iowa

7

Case 1:19-cr-00108-CJW-MAR Document 48 Filed 05/19/20 Page 7 of 7
ADD. 014

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102

SENT TO CLIENT
Jul 07 2021
by: kelly_jensen
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court

July 07, 2021
Ms. Heather Quick
FEDERAL PUBLIC DEFENDER'S OFFICE
Northern District of Iowa
222 Third Avenue, S.E.
Cedar Rapids, IA 52401-1542
RE: 20-2072 United States v. Antonio Johnson
Dear Counsel:
The court has issued an opinion in this case. Judgment has been entered in accordance
with the opinion. The opinion will be released to the public at 10:00 a.m. today. Please hold the
opinion in confidence until that time.
Please review Federal Rules of Appellate Procedure and the Eighth Circuit Rules on postsubmission procedure to ensure that any contemplated filing is timely and in compliance with the
rules. Note particularly that petitions for rehearing and petitions for rehearing en banc must be
received in the clerk's office within 14 days of the date of the entry of judgment. Counsel-filed
petitions must be filed electronically in CM/ECF. Paper copies are not required. No grace period
for mailing is allowed, and the date of the postmark is irrelevant for pro-se-filed petitions. Any
petition for rehearing or petition for rehearing en banc which is not received within the 14 day
period for filing permitted by FRAP 40 may be denied as untimely.
Michael E. Gans
Clerk of Court
NDG
Enclosure(s)
cc:

Mr. Clerk, U.S. District Court, Northern Iowa
Ms. Elizabeth Dupuich
Mr. Antonio Donnel Johnson
Mr. Martin Joseph McLaughlin
District Court/Agency Case Number(s): 1:19-cr-00108-CJW-1

Appellate Case: 20-2072

Page: 1

Date Filed: 07/07/2021 Entry ID: 5052330

APPENDIX C
ADD. 015

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 20-2072
___________________________
United States of America
Plaintiff - Appellee
v.
Antonio Donnel Johnson, also known as Pig
Defendant - Appellant
____________
Appeal from United States District Court
for the Northern District of Iowa - Cedar Rapids
____________
Submitted: April 12, 2021
Filed: July 7, 2021
[Unpublished]
____________
Before GRUENDER, BENTON, and SHEPHERD, Circuit Judges.
____________
PER CURIAM.
Antonio D. Johnson pled guilty to unlawfully possessing a firearm in violation
of 18 U.S.C. §§ 922(g)(1), 922(g)(9), and 924(a)(2). The district court1 sentenced

1

The Honorable C.J. Williams, United States District Judge for the Northern
District of Iowa.

Appellate Case: 20-2072

Page: 1

Date Filed: 07/07/2021 Entry ID: 5052330

ADD. 016

him to 60 months in prison. He appeals his conviction. Having jurisdiction under
28 U.S.C. § 1291, this court affirms.
The district court set Johnson’s base offense level at 20 pursuant to U.S.S.G.
§ 2K2.1(a)(4)(A) because he had a prior “controlled substance offense” for
possessing marijuana with intent to deliver, in violation of Iowa Code §§
124.401(1)(d) and 124.204(m). The guidelines range was 70 to 87 months. The
court varied downward, sentencing Johnson to 60 months.
Johnson believes his Iowa conviction is not a controlled substance offense.
This court reviews de novo. See United States v. Williams, 926 F.3d 966, 969 (8th
Cir. 2019). There is no merit to this argument. A “controlled substance offense” is
a state or federal offense, punishable by imprisonment for a term exceeding one year,
that prohibits, among other things, the manufacture or distribution of a “controlled
substance.” U.S.S.G. § 4B1.2(b). The includes “aiding and abetting, conspiring,
and attempting to commit such offenses.” Id., comment. (n.1).
Johnson argues the Iowa statue is overbroad because it includes aiding,
abetting, conspiracy, and attempt. Eighth Circuit precedent precludes this argument.
This court has held that “U.S.S.G. § 4B1.2, comment. (n.1), is a reasonable
interpretation of the career offender guidelines that is well within the Sentencing
Commission’s statutory authority.” United States v. Mendoza-Figueroa, 65 F.3d
691, 694 (8th Cir. 1995). See United States v. Garcia, 946 F.3d 413, 417 (8th Cir.
2019) (holding that a prior conviction for aiding and abetting the distribution of meth
is a controlled substance offense). This court also has held a conviction under Iowa
Code § 124.401(1)(d) is a controlled substance offense. See United States v.
Clayborn, 951 F.3d 937, 940 (8th Cir. 2020) (rejecting the argument that a
conviction under Iowa Code § 124.401(1)(d) is overbroad because it includes aiding,
abetting, and conspiring).
The district court did not err in finding Johnson had a prior controlled
substance offense.
-2Appellate Case: 20-2072

Page: 2

Date Filed: 07/07/2021 Entry ID: 5052330

ADD. 017

*******
The judgment is affirmed.
______________________________

-3Appellate Case: 20-2072

Page: 3

Date Filed: 07/07/2021 Entry ID: 5052330

ADD. 018

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 20-2072
___________________

SENT TO CLIENT
Jul 07 2021
by: kelly_jensen

United States of America
Plaintiff - Appellee
v.
Antonio Donnel Johnson, also known as Pig
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Northern District of Iowa - Cedar Rapids
(1:19-cr-00108-CJW-1)
______________________________________________________________________________
JUDGMENT
Before GRUENDER, BENTON, and SHEPHERD, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
July 07, 2021

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 20-2072

Page: 1

Date Filed: 07/07/2021 Entry ID: 5052334

APPENDIX D
ADD. 019

Adopted April 15, 2015
Effective August 1, 2015
Revision of Part V of the Eighth Circuit Plan to Implement the Criminal Justice Act of
1964.
V. Duty of Counsel as to Panel Rehearing, Rehearing En Banc, and Certiorari
Where the decision of the court of appeals is adverse to the defendant in whole or in part, the
duty of counsel on appeal extends to (1) advising the defendant of the right to file a petition for
panel rehearing and a petition for rehearing en banc in the court of appeals and a petition for writ
of certiorari in the Supreme Court of the United States, and (2) informing the defendant of
counsel's opinion as to the merit and likelihood of the success of those petitions. If the defendant
requests that counsel file any of those petitions, counsel must file the petition if counsel
determines that there are reasonable grounds to believe that the petition would satisfy the
standards of Federal Rule of Appellate Procedure 40, Federal Rule of Appellate Procedure 35(a)
or Supreme Court Rule 10, as applicable. See Austin v. United States, 513 U.S. 5 (1994) (per
curiam); 8th Cir. R. 35A.
If counsel declines to file a petition for panel rehearing or rehearing en banc requested by the
defendant based upon counsel's determination that there are not reasonable grounds to do so,
counsel must so inform the court and must file a written motion to withdraw. The motion to
withdraw must be filed on or before the due date for a petition for rehearing, must certify that
counsel has advised the defendant of the procedures for filing pro se a timely petition for
rehearing, and must request an extension of time of 28 days within which to file pro se a petition
for rehearing. The motion also must certify that counsel has advised the defendant of the
procedures for filing pro se a timely petition for writ of certiorari.
If counsel declines to file a petition for writ of certiorari requested by the defendant based on
counsel's determination that there are not reasonable grounds to do so, counsel must so inform
the court and must file a written motion to withdraw. The motion must certify that counsel has
advised the defendant of the procedures for filing pro se a timely petition for writ of certiorari.
A motion to withdraw must be accompanied by counsel's certification that a copy of the motion
was furnished to the defendant and to the United States.
Where counsel is granted leave to withdraw pursuant to the procedures of Anders v. California,
386 U.S. 738 (1967), and Penson v. Ohio, 488 U.S. 75 (1988), counsel's duty of representation is
completed, and the clerk's letter transmitting the decision of the court will notify the defendant of
the procedures for filing pro se a timely petition for panel rehearing, a timely petition for
rehearing en banc, and a timely petion for writ of certiorari.

Appellate Case: 20-2072

Page: 1

Date Filed: 07/07/2021 Entry ID: 5052334
ADD. 020

